No.

Gu The
Supreme Court Of The United States

 

Bret Chiafalo, Levi Jennet Guerra, and Esther Virginia John,
Applicants,

ve

State of Washington,
Respondent.

 

CERTIFICATE OF SERVICE

 

I, L. Lawrence Lessig, counsel for Applicants, hereby certify that
on August 2, 2019, I caused one copy of the Application For An Extension
Of Time To File A Petition For Writ Of Certiorari To The Supreme Court
Of Washington to be served by first-class mail and email on the counsel
below. I further certify that all parties required to be served have been
served.

Callie Castillo

Office of the Attorney General
P.O. Box 40100

Olympia, WA 98504
calliec@atg.wa.gov

(360) 664-0869

Attorney for Respondent

Lt a wree festa
L. Lawrence Lessig

Counsel of Record

EQUAL CITIZENS

12 Eliot Street

Cambridge, MA 02138
lessig@law.harvard.edu

(617) 496-1124
